                                   Message from the Inspector General

                      I am pleased to present the Office of Inspector General’s (OIG) FY 2006 Performance
                      Report. OIG’s results for the past year were noteworthy, despite the daunting challenge
                      of meeting exponentially increasing demands for our expertise and oversight within the
                      continuing constraints of limited resources and rapidly rising costs. Our work provides
                      real-time information to the Department and Congress on matters affecting the
                      Department’s most critical programs, including on-the-ground reviews in Iraq and
                      Afghanistan. OIG’s value added is demonstrated in significant findings, cost
                      efficiencies and savings, and actions taken by the Department and BBG in response to
                      OIG work that result in improvements to the effectiveness, efficiency, economy, and
integrity of their operations and the safety, quality of life, and accountability of their personnel.

I am proud of the contribution OIG makes to helping the Department address its management and
performance challenges. The scope of our oversight mandate and the opportunity it offers to make a
positive impact in strengthening the management of the Department continue to expand rapidly. During FY
2006, OIG expanded its oversight to encompass new Department initiatives in transformational diplomacy,
global repositioning, and public diplomacy, as well as substantial increases in programs for Iraq and
Afghanistan, counternarcotics, counterterrorism, embassy construction, and information technology.
Significant growth in the number of programs and grants with mandated OIG oversight, congressional and
management requests for special reviews and investigations, and opportunities for joint activities with other
departments, agencies, and OIGs further enhance both the challenges and the benefits of our work.

The expansive scope of these activities has resulted in substantial benefits to the U.S. Government and the
American taxpayer. OIG accomplishments in FY 2006 have supported the Department’s strategic goals as
well as OIG’s vision of promoting effective management, accountability, and positive change in the
Department of State and the Broadcasting Board of Governors (BBG). During FY 2006, OIG activities
resulted in actual recoveries and identified savings of more than $31.3 million, as well as issuance of 100
reports with recommendations to improve Department and BBG programs and operations. Other
substantive outcomes of our work included:

•	 Actions toward a strategic plan for Embassy Baghdad’s rule-of-law programs, which will strengthen the
   embassy’s coordinating role and increase Iraqi participation in project development;
•	 Improvements to strengthen Iraqi anticorruption programs by increasing the effectiveness of Embassy
   Baghdad’s interagency working group, establishing a strategy for U.S. advisors and trainers to bridge
   gaps between Iraqi anticorruption institutions, and supporting a training facility for Iraqi anticorruption
   personnel;
•	 Strengthened internal management controls at the Global Financial Services Center in Charleston;
•	 Immediate security improvements and potential cost avoidances for the new embassy construction
   project in Beijing, China; and
•	 Corrective actions to improve border security and reduce vulnerabilities from terrorists.

OIG has accomplished a lot this year, but like the Department, we have much to do to meet the management
and performance challenges we have set for ourselves. I am committed to restoring OIG’s capabilities to
provide the oversight and advisory assistance necessary to assure the Department, Congress, and the
American taxpayer that the programs and operations we review are as effective, efficient, economical, and
accountable as possible.


                                                                  Howard J. Krongard
                                                                  Inspector General


                                                Page 1 of 14
OIG FY 2006 PERFORMANCE RESULTS

This overview presents the highlights of OIG’s FY 2006 accomplishments and progress in achieving its
strategic and performance goals.

OIG Responsibilities and Organization

The mission of the Office of Inspector General is to conduct independent audits, inspections, and
investigations that advance the missions of the Department of State (Department) and the Broadcasting
Board of Governors (BBG). As required by law, OIG provides independent, objective, and professional
oversight of these operations and activities through a rigorous program of inspections, audits, special
reviews, and investigations. It is OIG’s responsibility to examine, evaluate, and, where necessary, critique
these operations and activities, recommending ways for these agencies to carry out their respective
responsibilities in the most effective, efficient, and economical manner possible.

All OIG operations are located in the Washington, D.C., area, although OIG staff conduct their work at
Department and BBG locations worldwide. In June 2006, OIG implemented an organizational change
with the addition of a second Deputy Inspector General position to provide better oversight of OIG
products and services. OIG’s mission is carried out by four functional offices (Audits, Information
Technology, Inspections, and Investigations) and the Office of the Executive Director for internal
operations, as well as four advisory and support units (Office of Counsel, Senior Advisor for Security and
Intelligence, Iraq/Afghanistan Coordinator, and Congressional and Public Affairs).

The Government Performance and Results Act of 1993 requires agencies to submit annual performance
reports detailing their success in achieving the goals and measures in their annual performance plans. As
the independent oversight body for the Department of State and the BBG, OIG has its own vision,
mission, strategic goals, and performance goals, measures, and targets. OIG does not implement foreign
policy, provide security, manage financial and administrative operations, or ensure accountability.
Through its oversight, however, OIG works to ensure that the Department and BBG do better at these
factors and all facets of their operations and activities.

OIG Impact: Achieving Results

OIG has established a separate but complementary set of strategic goals that are expressed in terms of the
impact of its work in ensuring the efficiency, effectiveness, and integrity of programs and initiatives that
are critical to achieving Department and BBG strategic objectives. OIG’s performance plan also includes
an internal management excellence goal focused on promoting staff excellence and improving internal
processes and products. The majority of OIG’s activities directly support the Department’s strategic
objective to “Strengthen Diplomatic and Program Capabilities” and the strategic goal of “Management
Excellence,” although OIG’s work also supports many other Department and BBG strategic goals. OIG’s
measures of success are based on the premise that the ability of the Department and BBG to achieve their
goals and missions is enhanced by OIG’s efforts to objectively review their programs and activities,
identify deficiencies and vulnerabilities, and recommend corrective actions. The outcomes of OIG’s work
are most evident in the actions taken by the Department and BBG in response to audit and inspection
recommendations and investigations.




                                                Page 2 of 14
                                              OIG Strategic and Performance Goals
            Strategic Goal (SG)                                             Performance Goal (PG)
    SG1: The Department and the BBG             PG1: Improve the operations of overseas missions, domestic bureaus, and
    effectively, efficiently, and               international broadcasting activities through inspections, audits, and program
    economically advance the foreign            evaluations
    policy interests of the United States

    SG2: The Department and the BBG             PG1: Assess security for personnel, facilities, and information at Department and
    adequately protect the people,              BBG facilities worldwide and ensure that necessary corrective actions are
    information, and facilities under their     implemented
    control in the United States and
    abroad
    SG3: The Department and the BBG             PG1: Identify vulnerabilities in Department and BBG financial and
    have the necessary systems and              administrative support programs and recommendations to improve them
    controls to meet legal and operational
    requirements

                                                PG2: Evaluate Department and BBG progress in addressing priority issues such
                                                as the Secretary’s management priorities, major management challenges, high-
                                                risk areas, performance measurement, and the President’s Management Agenda
    SG4: The Department and the BBG             PG1: Identify potential monetary and non-monetary benefits resulting from audit,
    ensure accountability and prevent or        inspection, program evaluation and investigative findings concerning fraud,
    eliminate fraud, waste, abuse, and          waste, abuse, and mismanagement; and improve the efficiency of Department
    mismanagement in programs and               operations and compliance with applicable contract and grant agreements
    operations
                                                PG2: Promote professional and ethical conduct and accountability, and
                                                investigate fraud, waste, abuse, and mismanagement

    Management Excellence                       PG1: Ensure that employees have the professional skills and expertise necessary
                                                to fulfill OIG mission and goals
                                                PG2: Continuously improve OIG products and processes for maximum impact in
                                                meeting customer needs

Resources Supporting Strategic Goals

OIG strategic goals were supported by a FY 2006 appropriation of $29.65 million, and a supplemental
appropriation of $1.3 million to conduct oversight work related to post-conflict stabilization and
reconstruction in Iraq and Afghanistan. 1 Funding issues and recruitment problems limited OIG’s on-board
staffing to an average of 182 employees during FY 2006. Allocation of resources to OIG’s strategic goals
is summarized below.
                                              Allocation of Resources to Strategic Goals

       Strategic Goal                         Appropriation          % of             Number of Staff          % of Staff
                                                                 Appropriation

       SG1: Foreign Policy                    $9.1 million            31%                    47                   26%

       SG2: Security                          $5.7 million            19%                    35                   19%

       SG3: Financial Management              $7.9 million            27%                    52                   29%

       SG4: Accountability                    $6.9 million            23%                    48                   26%




1
 The supplemental appropriation for FY 2006-07 was received too late in the fiscal year to be expended in support
of FY 2006 activities. It will be allocated against OIG’s FY 2007 activities and performance results.
                                                      Page 3 of 14
OIG’s appropriation has been essentially flat since the mid-1990s, while the Department’s overall
appropriations have increased almost 126 percent. During this period, OIG’s appropriation, as a
percentage of the Department’s appropriation, has decreased from nearly 0.6 percent to 0.35 percent.

    Fiscal Year     1996     1997     1998     1999     2000      2001     2002     2003     2004     2005     2006

    Appropriation
                    $27.33   $27.50   $27.50   $28.50   $27.38    $28.43   $29.00   $29.97   $31.40   $30.00   $29.65
    ($ millions)

    Supplemental
    Appropriation                                                                                      $1.69    $1.30
    ($ millions)

    % of Dept.
                     .59%     .59%     .51%     .37%     .42%      .41%     .34%     .34%     .35%     .36%     .35%
    Appropriation


Supplemental appropriations of $1.69 million in FY 2005 and $1.3 million in FY 2006 have helped
provide oversight for programs in Iraq and Afghanistan. However, OIG still faces significant challenges
in restoring oversight capabilities eroded by a decade of static appropriations. Continued growth in
mandated oversight responsibilities, special Department and congressional requests, and new activities
related to Iraq and Afghanistan further strain OIG’s capabilities in an environment of increasing costs and
declining resources. OIG will meet these challenges by actively making its case for the resources it needs
to meet its oversight and investigative responsibilities while continuing efforts to use the resources it has
more efficiently and effectively and by continuing to reengineer its internal processes and procedures to
improve efficiency and effectiveness and increase productivity.

PERFORMANCE SUMMARY AND HIGHLIGHTS

Overall, OIG achieved 60 percent of its FY 2006 performance targets, with some results substantially
exceeding targets. These included the measures for actual recoveries or monetary benefits and potential
savings identified, which exceeded the target by 268 percent, and for audit return on investment, which
exceeded the target by 72 percent. Two-thirds of the targets not achieved involved delays in reaching
management agreement on OIG recommendations. Most of the performance shortfalls experienced in FY
2006 were the result of funding issues and staffing shortages. These reduced OIG’s ability to staff
projects and positions responsible for addressing timely management decisions on OIG recommendations.
Streamlined procedures and more efficient use of resources, along with aggressive new recruitment
efforts, should enable OIG to better meet its future targets and to achieve those not met in FY 2006.

Most Significant Accomplishments and Expected Future Results

During FY 2006, OIG findings and recommendations prompted the Department and BBG to take actions
that produced significant results or laid the foundation for expected future results to improve the
effectiveness, efficiency, and economy of their programs and operations. During its review of the rule-of-
law programs in Iraq, OIG identified approximately $400 million in related spending by multiple agencies
and made recommendations to establish an overarching strategic plan for Embassy Baghdad’s rule-of-law
programs. A joint survey with SIGIR resulted in recommendations to strengthen Iraqi anticorruption
programs and provide support and guidance for Iraqi efforts to establish a training facility for
anticorruption personnel. Other accomplishments included: improved procedures designed so that only
American citizens received U.S. passports; better protection of classified information and materials;
improvements in the integrity and reliability of information and financial management systems; better
accountability for Department employees, contractors, and grantees; identification of potential cost
benefits; and reduced fraud and other violations of law and regulation. OIG’s performance results, and
highlights of OIG’s most significant accomplishments and expected future results from OIG
recommendations, are summarized below by strategic goal.


                                                   Page 4 of 14
                                             Strategic Goal 1: Foreign Policy
                        The Department and the BBG effectively, efficiently, and economically
                              advance the foreign policy interests of the United States
The Department’s success in achieving U.S. foreign policy goals is influenced by the effective
management and efficient and economical operation of overseas missions, domestic bureaus, and
international broadcasting entities. OIG is mandated by the Foreign Service Act of 1980, as amended, to
assess the effectiveness of foreign policy implementation. Through a program of post and bureau
management inspections, OIG evaluates whether policy goals and objectives are being achieved, U.S.
interests are effectively represented, and posts are operating in consonance with U.S. foreign policy. OIG
also reviews and evaluates operations and programs with foreign policy implications, including consular
operations, export controls, border security, and international broadcasting.



       KEY ACCOMPLISHMENTS AND EXPECTED FUTURE RESULTS                                                                                   IN
                 RESPONSE TO OIG REPORTS AND INVESTIGATIONS
      ¾ Expected improvements to U.S. mission operations in Iraq and Afghanistan, resulting from
        recommendations to:
        o Establish an over-arching strategic plan for Embassy Baghdad’s rule-of-law programs, strengthen
            the Embassy’s coordinating role, and increase Iraqi participation in project development
        o Strengthen Iraqi anticorruption programs by increasing Embassy Baghdad’s oversight and
            coordination of the embassy’s interagency working group, establishing a strategy for U.S. advisors
            and trainers to bridge gaps between Iraqi anticorruption institutions, and supporting a training
            facility for Iraqi anticorruption personnel
        o Promote less dependence by the Afghan Government on the U.S. for policy guidance and improve
            the structure of the 23 civil-military Provincial Reconstruction Teams
      ¾ Improvements to international broadcasting efforts in the Global War on Terror, and greater coordination
        within the Department on public diplomacy matters
      ¾ Corrective action by the Department to improve border security by addressing consular vulnerabilities
        identified by OIG that could be exploited by terrorists
      ¾ Actions contributing to Department efforts in implementing transformational diplomacy with respect to
        the Middle East Partnership Initiative


      Performance Goal: Improve the operations of overseas missions, domestic bureaus, and international
      broadcasting operations through inspections, audits, and program evaluations

                                                                                                                                % above
      Measure                                              FY 2003       FY 2004       FY 2005       FY 2006       FY 2006
                                                                                                                                or below
                                                            Actual        Actual        Actual        Actual        Target
                                                                                                                                 target

      Missions and bureaus inspected                          49            50            50           33 2           31           +7%

      Reports issued on systemic/ regional/policy             10            10            15            10            12          -17%
      issues and programs

      Results for issuing reports on systemic/regional/policy issues were below targeted performance levels and FY 2005 results because of
      the need to shift resources to support special requests and other priority work, as increased costs and reductions in staff severely
      strained operations.




2
    Updated as of 11/30/06.
                                                                   Page 5 of 14
      Recommendations resolved within 6 months                 72%           89%           78%            65%           80%           -19%

      Significant recommendations resolved within 6
                                                               50%           76%           80%           47%            80%           -41%
      months

      Results for resolving recommendations were substantially below targeted performance levels and FY 2005 results. The need to shift
      resources supporting compliance efforts to other important work, due to significant unanticipated increases in travel costs and
      reductions in staff, impeded OIG’s ability to ensure that the Department and BBG responded in a timely fashion.




                                                    Strategic Goal 2: Security
             The Department and the BBG adequately protect the people, information, and facilities
                             under their control in the United States and abroad
With the continuing threat of terrorism and regional instability in the post-9/11 environment, the security
of U.S. personnel, facilities, and information remains an issue of overriding importance in terms of
personal and national security and the billions of dollars appropriated annually to protect them. OIG
security and information security inspections and audits play an essential role in identifying and making
recommendations to address security vulnerabilities that could compromise national security and threaten
the safety and well-being of U.S. personnel and facilities domestically and abroad.

                     KEY ACCOMPLISHMENTS AND EXPECTED FUTURE RESULTS
                       IN RESPONSE TO OIG REPORTS AND INVESTIGATIONS
      ¾ Improved perimeter security at vehicle access points to overseas missions
      ¾ Improvements in emergency preparedness at BBG domestic facilities
      ¾ Immediate security improvements and potential cost avoidances for the new embassy construction
        project in Beijing, China
      ¾ Expedited assignment of a full-time security officer to a critical-threat post that was supported only by
        temporary security personnel
      ¾ Improvements in Department IT operations, including implementation of a process to allow regional
        technicians access to diagnostic tools to troubleshoot and resolve problems in a more timely manner
      ¾ Corrective action by the Department to improve its “patch management” program so that the most
        current patches are installed on IT systems to prevent the exploitation of security vulnerabilities
      ¾ Elimination of a backlog of over 200 requests from embassies for Dedicated Internet Network waivers,
        which had caused embassy websites to operate without proper approval, or to not operate at all


      Performance Goal: Assess security for personnel, facilities, and information at Department and BBG
      facilities worldwide, and ensure that necessary corrective actions are implemented
      Measure                                                                                                                       % above
                                                             FY 2003       FY 2004       FY 2005       FY 2006        FY 2006
                                                                                                                                    or below
                                                              Actual        Actual        Actual        Actual         Target
                                                                                                                                     target

      Reports issued on security programs                       7              9            16            23 3           14           +64%

      Recommendations resolved within 6 months                 90%           75%           72%            68%           80%           -15%

      Significant recommendations resolved within 6
                                                               93%            9%           80%           71%            80%           -11%
      months

      Results for resolving recommendations were below targeted performance levels and FY 2005 results. The need to shift resources
      supporting compliance efforts to other important work, due to significant unanticipated increases in travel costs and reductions in
      staff, impeded OIG’s ability to ensure that the Department and BBG responded in a timely fashion.



3
    Updated as of 11/30/06.
                                                                    Page 6 of 14
              Strategic Goal 3: Financial Management and Administrative Support
                           The Department and the BBG have the necessary systems and controls
                                       to meet legal and operational requirements
A significant portion of the foreign affairs budget is devoted to developing, maintaining, and securing the
infrastructures—including physical facilities, information systems, financial management, grants
management, procurement, personnel systems, and administrative support services—that underlie and
support the Department’s operations and provide a base for the conduct of U.S. foreign policy. This
strategic goal comprises many of the operations encompassed within the Department’s strategic objective
to strengthen diplomatic and program capabilities and its strategic goal to achieve management and
organizational excellence. OIG audits, inspections, and program evaluations assess these operations to
evaluate whether established goals and objectives are achieved and resources are used economically and
efficiently; to assess whether results are consistent with laws, regulation, and good business practice; and
to test financial accountability and the reliability of financial statements.



                     KEY ACCOMPLISHMENTS AND EXPECTED FUTURE RESULTS
                       IN RESPONSE TO OIG REPORTS AND INVESTIGATIONS
      ¾     Development of an airline travel self-assessment tool for bureaus to use to determine compliance with
            air travel policies
      ¾     Improved financial management and administrative support resulting from recommendations to:
            • Strengthen controls at the Global Financial Services Center in Charleston
            • Improve controls over the tracking and reporting of aircraft and parts inventories, which were
                  underreported in the Department’s FY 2004 financial statements by $162 million
            • Establish a quality assurance function in the Office of Medical Services, improve compliance with
                  the Health Insurance Portability and Accountability Act, and realize cost savings by outsourcing
                  specific medical functions


      Performance Goal 1: Identify vulnerabilities in Department and BBG financial and administrative support
      programs and recommendations to improve them

                                                                                                                                    % above
      Measure                                                FY 2003       FY 2004       FY 2005        FY 2006       FY 2006
                                                                                                                                    or below
                                                              Actual        Actual        Actual         Actual        Target
                                                                                                                                     target

      Reports issued on programs reviewed                       21            42             36           35 4           24           +46%

      Recommendations resolved within 9 months                 59%           86%            67%           70%           80%           -13%

      Results for resolving recommendations were below targeted performance levels, but substantially above FY 2005 results. During FY
      2006, this measure was restated from 6 months to 9 months, in recognition of the longer timeframe required to implement many audit
      recommendations, and the target level was increased from 68 percent to 80 percent. This ambitious increase, combined with a
      reduction in resources, resulted in OIG missing a target that it would have met at last year’s level.

      Significant recommendations resolved within 9
                                                               53%           63%            60%           80%           85%            -6%
      months

      Results for resolving recommendations were below targeted performance levels, but more than two and a half times OIG’s FY 2005
      results. During FY 2006, this measure was restated from 6 months to 9 months, in recognition of the longer timeframe required to
      implement many audit recommendations, and the target level was increased from 50 percent to 85 percent. This ambitious increase,
      combined with a reduction in resources, resulted in OIG missing a target that it would have significantly exceeded at last year’s level.



4
    Updated as 11/30/06.
                                                                     Page 7 of 14
   Performance Goal 2: Evaluate Department and BBG progress in addressing priority issues such as the Secretary’s
   management priorities, major management challenges, high-risk areas, performance measurement, and the
   President’s Management Agenda

                                                                                                          % above
   Measure                                      FY 2003    FY 2004     FY 2005     FY 2006    FY 2006
                                                                                                          or below
                                                 Actual     Actual      Actual      Actual     Target
                                                                                                           target

   Percent of major management challenges
                                                  N/A        N/A        100%        100%        80%        +25%
   addressed in OIG reports




                                        Strategic Goal 4: Accountability
               The Department and the BBG ensure accountability and prevent or eliminate
                  fraud, waste, abuse, and mismanagement in programs and operations
All government employees must conform to fundamental guiding principles governing professional and
ethical conduct, as defined in law, executive order, regulation, policy, and procedure, as well as personal and
management accountability. OIG promotes accountability and integrity in Department programs and
operations through audits of selected grantees and contractors to determine whether the organizations
expended federal funds for the intended purpose of the agreement and in accordance with applicable federal
laws and regulations related to the agreement terms and conditions. OIG also is mandated to prevent and
detect waste, fraud, and mismanagement. Specific allegations or other information indicating possible
violations of law or regulation are investigated by OIG criminal investigators, supported by experts from
other OIG offices, as appropriate. In addition, OIG proactively educates and shares best practices with
targeted audiences—including new ambassadors, deputy chiefs of mission, and Foreign and Civil Service
employees—to improve adherence to standards of accountability by ensuring that employees of the foreign
affairs agencies are informed of and understand the standards specific to their professional and ethical
conduct.



                 KEY ACCOMPLISHMENTS AND EXPECTED FUTURE RESULTS
   ¾    Identification of questioned costs, recoveries, or funds put to better use totaling $31.3 million: $11.9
        million from audit work, $4.3 million in investigative recoveries, and $15.1 million from inspections,
        including the reallocation of $15 million from inactive projects at Embassy New Delhi to fund joint
        scientific research with India
   ¾    Convictions, sentencing, suspension, and other actions against employees and other individuals who
        committed crimes against the Department
   ¾    Development by the Department of a fraud-prevention “tool kit” for consular operations
   ¾    Termination of a warehouse lease by the Department, and the transfer of other administrative activities
        to the regional center in Singapore
   ¾    BBG actions to begin centralizing its management of overseas transmitting stations




                                                     Page 8 of 14
    Performance Goal 1: Identify potential monetary and non-monetary benefits resulting from audit, inspection,
    program evaluation and investigative findings concerning fraud, waste, abuse, and mismanagement; and improve
    the efficiency of Department operations and compliance with applicable contract and grant agreements

                                                                                                                            % above
                                                        FY 2003       FY 2004      FY 2005       FY 2006      FY 2006
    Measure                                                                                                                 or below
                                                         Actual        Actual       Actual        Actual       Target
                                                                                                                             target

    Return on investment for audits                       $1.29        $1.26         $5.01        $2.06         $1.10        +72%

    Value of cost savings, efficiencies, recoveries,     $13.0         $6.8         $31.5         $31.3         $8.6
                                                                                                                             +268%
    and fines                                            million      million       million       million      million



    Performance Goal 2: Promote professional and ethical conduct and accountability; and investigate fraud, waste,
    abuse, and mismanagement

                                                                                                                            % above
                                                        FY 2003       FY 2004      FY 2005       FY 2006      FY 2006
    Measure                                                                                                                 or below
                                                         Actual        Actual       Actual        Actual       Target
                                                                                                                             target

    Number of activities focused on key
                                                          N/A           N/A           27            37           28          +32%
    vulnerabilities

    Percentage of reports of investigation issued
                                                          N/A           N/A          100%          86%          70%          +23%
    within 6 months

    Investigations focused on management challenges       N/A           N/A          N/A          100%          65%          +54%

    Percent of complaints—not investigated by
                                                          N/A           N/A          N/A          86% 5         85%           +1%
    OIG—referred to outside agencies within 21 days




                                   Internal Goal: OIG Management Excellence

In addition to the performance goals supporting OIG’s four strategic goals, OIG has established an
internal management excellence goal and two internal performance goals designed to ensure that it has
the people it needs and that its work results in timely products. These and several other initiatives related
to internal management improvements are directed toward ensuring that OIG operations are efficient,
effective, and well-structured to achieve OIG’s core statutory mission.


    Performance Goal 1: Ensure employees have the professional skills and expertise necessary to fulfill OIG mission
    and goals.

                                                                                                                            % above
                                                        FY 2003       FY 2004      FY 2005       FY 2006      FY 2006
    Measure                                                                                                                 or below
                                                         Actual        Actual       Actual        Actual       Target
                                                                                                                             target

    Percentage of GS-13 to GS-15 employees and
    Foreign Service equivalents completing required       N/A           N/A          77%           84%          80%           +5%
    Department leadership training




5
  Followup verification of OIG performance data reported in the State Department’s FY 2006 Performance Accountability Report found that data
collection errors originally resulted in underreporting the performance results for this measure (86% vs. 69%).
                                                              Page 9 of 14
   Performance Goal 2: Continuously improve OIG products and processes for maximum impact in meeting
   customer needs

                                                                                                                                % above
                                                         FY 2003       FY 2004        FY 2005       FY 2006       FY 2006
   Measure                                                                                                                      or below
                                                          Actual        Actual         Actual        Actual        Target
                                                                                                                                 target

   Average number of days from start to issuance
                                                            256           182           188           171            180          +5%
   for inspection reports and program reviews

   Average number of days from start to issuance
                                                            341           284           230           234            215           -9%
   for audit reports

   Results for issuance of audit reports were below targeted levels, and just slightly below FY 2005 performance levels, due in large part
   to staffing problems that delayed issuance of several reports. However, much of the shortfall in FY 2006 resulted from a reduction of
   25 days from the FY 2005 target of 240 days—a level which would have placed OIG well within the performance target for this
   measure. Recruitment and training efforts are underway to address these staffing shortfalls.




Comparison of FY 2006 Results with Those of Prior Years

In FY 2006, 60 percent of OIG’s performance results met or exceeded performance targets. This
represents a reduction in performance from FY 2005, when 68 percent of results met or exceeded
performance targets. Nevertheless, about 44 percent of the FY 2006 results exceeded FY 2005 results.
OIG’s most successful results were under its strategic goal for Accountability, where it exceeded targets
for five out of six measures, and the internal goal to support management excellence, where it exceeded
two-thirds of its targets.

Unmet Targets and Reasons for Performance Shortfalls

OIG did not meet eight of its 20 targets in FY 2006. Six of the missed targets related to obtaining
Department or BBG agreement with OIG recommendations within set timeframes. These measures fell
short, in some cases significantly so, because funding issues and staffing shortages resulted in a
substantial cut in resources devoted to addressing compliance with OIG recommendations. These cuts
also affected OIG’s ability to meet four of the six targets not met in FY 2005, which it had hoped to
achieve in FY 2006. OIG expects to achieve or exceed these targeted levels in FY 2007 by putting
additional emphasis and human resources toward obtaining timely Department and BBG agreement with
OIG recommendations.

The two remaining targets missed in FY 2006 related to the number of reports issued on
systemic/regional/policy issues and programs and the number of days required to issue final audit reports
in accordance with government auditing standards. Staffing problems and competing priorities required
OIG to refocus its planned activities, resulting in a slight shortfall in the number of systemic reports
issued and a slight increase in the time required to issue audit reports.

Of the remaining two targets not met in OIG’s FY 2005 Performance Report, one—average number of
days to produce an inspection report—was exceeded in FY 2006. The final target, involving completion
of a customer survey, was dropped based on a determination that the cost of conducting the survey would
substantially outweigh the expected benefits, and would not be the best use of limited OIG resources.




                                                               Page 10 of 14
Verification and Validation

The performance data in OIG’s FY 2006 Program Performance Report meets the standards for reliability
contained in Office of Management and Budget Circular A-11. Information from systems used to track
OIG performance data is reviewed and verified periodically throughout the year and is considered
adequately reliable for decision-making and reporting under the Government Performance and Results
Act. Performance indicators are verified in ways appropriate for each indicator:

•	 Each Assistant Inspector General attests to the accuracy and completeness of the data related to his or
   her respective office’s activities and results, and staff from OIG’s Office of Executive Director audit
   the data used in this report to verify its completeness and accuracy.
•	 Some indicators, including those related to completion of a review or other specific activity, are self-
   measuring and require little verification and validation, beyond confirmation that the activity has been
   completed satisfactorily.
•	 Indicators involving recommendations resolved are based on compliance information tracked in
   OIG’s Compliance Analysis Tracking System (CATS), which allows OIG to analyze progress and
   trends in the resolution and implementation of OIG recommendations. The status of recommendations
   is verified monthly with Department and BBG offices responsible for addressing the
   recommendations and with OIG offices responsible for evaluating and tracking compliance with
   them.
•	 Financial indicators are based on the mandated measures for audit and investigative operations set
   forth in the Inspector General Act. The figures are based on results provided by the responsible
   offices, which are tracked in CATS and reported in the Semiannual Report (SAR) to the Congress and
   the Annual Report of the President’s Council on Integrity and Efficiency (PCIE).
•	 Performance data for investigative measures are tracked in OIG’s Case Management System and
   reported in the SAR and the Annual Report of the PCIE.
•	 For internal performance goal indicators, the percentage of OIG staff meeting leadership training
   requirements is based on information provided by the Foreign Service Institute and verified against
   OIG staffing and training records. The average number of days from project start to product issuance
   and the percentage of projects completed within a set number of days are based on data in the Project
   Tracking System and OIG Timesheet System, which is verified by documentation and periodic
   supervisory reviews, as appropriate.
OIG’s performance indicators measure a combination of outputs (missions, bureaus, programs, and
activities inspected or audited and reports issued) and interim outcomes (recommendations resolved,
potential monetary savings, reports of investigations issued) that are based, to a large extent, on measures
mandated for OIGs under the Inspector General Act. These goals and measures are based on the premise
that the ability of the Department and BBG to achieve their own strategic goals and objectives is
enhanced by OIG’s objective reviews of the agencies’ component entities, programs, and activities.
Reports issued and recommendations resolved are considered to be proxies for actions taken to identify
vulnerabilities and recommend corrective actions that result in improved programs and operations. As
such, they represent valid measures of OIG’s progress in meeting its strategic and performance goals.




                                                Page 11 of 14
Changes to FY 2007 Goals, Indicators, and Targets

OIG is reviewing its performance plan, indicators, and targets in light of its likely FY 2007 appropriation,
FY 2006 results, changing world conditions, and rising costs. Some indicators have been added, modified,
or dropped, in keeping with OIG’s ongoing effort to strengthen its indicators and targets, enhance their
consistency, and eliminate those that are not cost-beneficial to measure. Additional changes may be made
as OIG finalizes its FY 2008 performance budget.

For Strategic Goal 3 (Financial Management and Administrative Support), two indicators and
corresponding targets were changed beginning in Fiscal Year 2006:

    •	 Percentage of recommendations resolved: The timeframe for resolution of audit
       recommendations was changed from 6 months to 9 months, and the target for the percentage
       resolved was revised from 68 percent to 80 percent in 2006, and to 85 percent in 2007 and
       beyond.
    •	 Percentage of significant recommendations resolved: The timeframe for resolution of significant
       audit recommendations was also changed from 6 months to 9 months, and the target for
       percentage resolved was revised from 50 percent to 80 percent in 2006, and to 85 percent in 2007
       and beyond.

These changes were made to enhance the consistency of OIG’s targets for resolving recommendations.
The timeframe changes necessitated restatement of prior years’ results.

For Strategic Goal 4 (Accountability), two new indicators were added in 2006, and one will be dropped
in 2007. The two new indicators in 2006 were:

    •	 The percentage of investigations that focus on Department and BBG management challenges; and
    •	 The percentage of complaints—not investigated by OIG—that were referred, as appropriate, to
       another agency within 21 days.

The indicator identifying the number of activities to strengthen accountability will be dropped, beginning
in 2007, due to inherent weaknesses in quantifying and verifying the data.

A performance measure to support OIG’s internal management goals, originally planned for 2006, also
was dropped. This indicator—percentage of customers rating OIG work as having a significant impact in
improving operations—was dropped based on a determination that the time and cost of conducting the
survey would exceed the benefits to be derived from the survey.

Performance Evaluations

No formal program evaluations of OIG operations were completed during FY 2006, although a
congressionally requested Government Accountability Office review of OIG operations was begun and
continued underway at the end of the fiscal year. A peer review of the Office of Audits is scheduled for
FY 2007.




                                               Page 12 of 14
                List of Abbreviations

BBG          Broadcasting Board of Governors
AUD          OIG Office of Audits
CATS         Compliance Analysis Tracking System
Department   Department of State
FISMA        Federal Information Security Management Act
FY           Fiscal Year
IT           Information technology
OIG          Office of Inspector General
PCIE         President’s Council on Integrity and Efficiency
PG           Performance goal
SAR          Semiannual Report to the Congress
SG           Strategic goal
U.S.         United States




                   Page 13 of 14
                  Report Fraud, Waste and Abuse to:

                  Office of Inspector General HOTLINE

                                202/647-3320

                             or 1-800-409-9926 

                      or e-mail oighotline@state.gov 

                   to report illegal or wasteful activities 


                          You may also write to 

                        Office of Inspector General 

                         U.S. Department of State 

                          Post Office Box 9778 

                          Arlington, VA 22219 




Additional information regarding OIG’s mission, activities and publications 

                     is available on the OIG website: 


                                oig.state.gov 


      Requests or questions regarding OIG planning activities or this 

                Performance Report may be addressed to: 


                     Office of the Executive Director 

                       Office of Inspector General 

                        U.S. Department of State 

                      Washington, DC 20522-0308 





                        Office of Inspector General 

                        Released November 2006 





                              Page 14 of 14
